OIG Investigative Reports, Press Release: Hughestown, PA February 01, 2010  - Former Pittston Area School Board Member Sentenced
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Middle District of Pennsylvania
William J. Nealon Federal Building
235 N. Washington Avenue
P.O. Box 309, Suite 311
Scranton, PA 18503-0309
Phone: (570) 348-2800
Fax : (570) 348-2037 or (570) 348-2830
Ronald Reagan Federal Building
228 Walnut Street
P.O. Box 11754, Suite 220
Harrisburg, PA 17108-1754
Phone: (717) 221-4482
Fax:  (717) 221-2246 or  (717) 221-4493
Herman T. Schneebeli Federal Building
240 West Third Street
Suite 316
Williamsport, PA 17701-6465
Phone: (570) 326-1935
Fax: (570) 326-7916
PRESS RELEASE
FOR IMMEDIATE RELEASE:
February 1, 2010
CONTACT: Dennis C. Pfannenschmidt
U.S. Attorney
(717) 221-4482
FORMER PITTSTON AREA SCHOOL BOARD MEMBER SENTENCED
Dennis C. Pfannenschmidt, United States Attorney for the Middle District of Pennsylvania; Janice Fedarcyk, Special Agent in Charge, Federal Bureau of Investigation; and Don Fort, Special Agent in Charge, Internal Revenue Service-Criminal Investigation Division, and Mary Mitchelson, Acting Inspector General of the U.S. Department of Education, Office of Inspector General jointly announced today that Joseph Oliveri, age 52, of Hughestown, Pennsylvania, was sentenced today by United States District Court Judge Thomas I. Vanaskie. Judge Vanaskie sentenced Oliveri to a 12 month and 1 day term of imprisonment followed by two years of supervised release and a $3,000 fine.
In August 2009, federal officials announced that a criminal information and plea agreement had been filed against Oliveri. The Criminal Information charged Oliveri with corrupt receipt of a reward for official action concerning a program receiving federal funds after Oliveri accepted a cash reward of ũ,500 from a contractor in connection with support Oliveri provided for a contract awarded to the contractor by the Pittston Area School District Board of Education.
This case is part of an on-going investigation by the Federal Bureau of Investigation and the Internal Revenue Service and was prosecuted by a team of federal prosecutors led by Senior Litigation Counsel Gordon Zubrod and includes Assistant U.S. Attorneys William Houser, Michael Consiglio, Amy Phillips and Criminal Division Chief Christian Fisanick..
****
Press Releases-Index
Top
Printable view
Last Modified: 02/23/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov